                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

     Case Number: Al1090059                                                                        Page lof 1



                      We asses_sed an allegation of plagiarism in an NSF proposal. 1 The PI uploaded into
              Fastlane the penultimate version of the proposal, which lacked the citation and quotation marks
              for the copied text. The <;ase is closed with a reminder to the PI emphasizing the need for care in
              the preparation and submission ofNSF proposals.
I'


l                       Accordingly, this case is closed.




     NSF OIG Form 2 (11102)
